<html>
<title> - THE VIOLENCE AGAINST WOMAN ACT: BUILDING ON 17 YEARS OF ACCOMPLISHMENTS</title>
<body><pre>[Senate Hearing 112-132]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-132

THE VIOLENCE AGAINST WOMAN ACT: BUILDING ON 17 YEARS OF ACCOMPLISHMENTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 13, 2011

                               ----------                              

                          Serial No. J-112-33

                               ----------                              

         Printed for the use of the Committee on the Judiciary











                                                        S. Hrg. 112-132

THE VIOLENCE AGAINST WOMAN ACT: BUILDING ON 17 YEARS OF ACCOMPLISHMENTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2011

                               __________

                          Serial No. J-112-33

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-894 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware, prepared statement...................................    88
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
    prepared statement...........................................    89
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   124

                               WITNESSES

Larence, Eileen R., Director, Homeland Security and Justice, U.S. 
  Government Accountability Office, Washington, DC...............    14
McGraw, Phillip C., Los Angels, California.......................     4
Poner, Julie, Indianapolis, Indiana..............................    12
Shaw, Michael, Co-Director, Domestic Violence & Sexual Assault 
  Services, Waypoint Services for Women, Children, and Families, 
  Cedar Rapids, Iowa.............................................     7
Van Buren, Jane A., Executive Director, Women Helping Battered 
  Women Inc., Burlington, Vermont................................    10

                         QUESTIONS AND ANSWERS

Responses of Eileen R. Larence to questions submitted by Senator 
  Coburn.........................................................    35

                       SUBMISSIONS FOR THE RECORD

AACLU, Laura W. Murphy, Director, Washington Legislative Office; 
  Vania Leveille, Senior Legislative Counsel and Joanne Lin, 
  Legislative Counsel, Washington, DC, statement.................    47
Brannon, David S., Representative, Voice of American Immigration 
  Fraud Victims, Washington, DC..................................    58
Campbell, Matt, Henrietta, New York, letter......................    87
Cutler, Michael W., (Retired) Senior Special Agent, INS, 
  statement......................................................    92
Fibish, Earl, Citrus Heights, California, July 20, 2011, letter..   102
Futures Without Violence, formerly Family Violence Prevention 
  Fund, Esta Soler, Founder and President, Washington, DC, 
  statement......................................................   103
Glassman, Donald, New York, New York, statement..................   107
Kinsey, Gary W., statement.......................................   109
Larence, Eileen R., Director, Homeland Security and Justice, U.S. 
  Government Accountability Office, Washington, DC...............   111
Legal Momentum, Elizabeth Grayer, President; Lisalyn Jacobs, 
  Vice-President; Leslye Orloff, Vice-President, Washington, DC, 
  joint statement................................................   126
Just Detention International, Washington, DC, statement..........   134
Maxwell, Michael J., statement...................................   143
McGraw, Phillip C., Los Angels, California, statement............   178
National Congress of American Indians (NCAI), Washington, DC, 
  statement......................................................   187
National Law Center on Homelessness & Poverty (NCL), Washington, 
  DC, statement..................................................   205
National Network to End Domestic Violence, Sue Else, President, 
  Washington, DC, statement......................................   209
National Network to End Violence Against Immigrant Women, Leslye 
  E., Orloff, Washington, DC, statement..........................   218
National Organization for Women, Terry O'Neill, President, 
  Washington, DC.................................................   228
Poner, Julie, Indianapolis, Indiana, statements..................   234
Sampson, John N., CSI Consulting & Investigations LLC, Strasburg, 
  Colorado, July 6, 2011, letter and statement...................   239
Shaw, Michael, Co-Director, Domestic Violence & Sexual Assault 
  Services, Waypoint Services for Women, Children, and Families, 
  Cedar Rapids, Iowa, statement..................................   259
Slania, Alex J., statement.......................................   263
Spivack, Natasha, Washington, DC, statement......................   265
Spyera Software, http://spyera.com/is-your-wife-cheating.html, 
  cell phones stalking appliations...............................   270
Starling, Carl, Jr., Prince George's County, Maryland, statement.   282
Stoddard, Teri, Program Director, Stop Abusive and Violent 
  Environment, Rockville, MD, memo...............................   289
Shull, Mark Kenneth, LTC USA (retired), statement................   290
Thomas, Davie R., Program Administrator Domestic Violence 
  Education, Division of Public Safety Leadership, Johns Hopkins 
  University, statement..........................................   292
Thompson, Michael, Winston-Salem, North Carolina, on Behalf of 
  Teri Stoddard, S.A.V.E, statement..............................   297
Van Buren, Jane A., Executive Director, Women Helping Battered 
  Women Inc., Burlington, Vermont, statement.....................   300
Voice of American Immigration Fraud Victims, stories of Female 
  Victims, letters...............................................   306
Women's Refugee Commission, New York, New York, statement........   330

 
THE VIOLENCE AGAINST WOMAN ACT: BUILDING ON 17 YEARS OF ACCOMPLISHMENTS

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Blumenthal, and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, everyone. Today the Committee 
will consider once again the importance of the Violence Against 
Women Act. Since 1994 it has been the centerpiece of the 
Federal Government's commitment to combating domestic violence, 
sexual assault, and other violent crimes against women.
    We worked in a bipartisan way to pass the Violence Against 
Women Act and its two subsequent reauthorizations. This law 
filled a void that had left too many victims of domestic and 
sexual violence without a way to ensure safety and justice and 
without the help they needed. And I was proud to work with 
then-Senator Biden and Senator Hatch to achieve this progress. 
I look forward to building on this legacy.
    I saw the devastating effects of domestic and sexual 
violence early in my career as State's Attorney in Vermont for 
Chittenden County. I saw the violence and abuse reach the homes 
of people from all walks of life, and as we know, in all parts 
of the country every day, it does not make any difference the 
gender, the race, the culture, the age, the class, or the 
sexuality.
    The Violence Against Women Act has helped to transform our 
criminal justice system. It has improved the response to the 
complex issues of domestic and dating violence, sexual assault, 
and stalking. It has provided legal remedies, social support, 
and coordinated community responses. With time, it has evolved 
to better address the needs of underserved populations and to 
include critical new programs focusing on prevention. Since the 
enactment of the Violence Against Women Act, the rate of 
domestic violence has declined, more victims have felt 
confident to come forward to report these crimes and to seek 
help, and States have come forward to enact complementary laws 
to combat these crimes.
    But despite this progress, our country still has a long way 
to go. Millions of women, men, children, and families continue 
to be traumatized by abuse. We know that one in four American 
women and one in seven men are the victims of domestic 
violence. One in 6 women and one in 33 men are victims of 
sexual assault, and 1.4 million individuals are stalked each 
year.
    Now, as we look toward reauthorization of the Violence 
Against Women Act, we have to continue to ensure that the law 
evolves to fill unmet needs. We have to increase access to 
support services, especially in rural communities, something 
that, coming from one of the most rural States in this country, 
I have focused on. We also have to worry about it among older 
Americans. We have to look at our response to the high rates of 
violence experienced by Native American and immigrant women.
    Programs to assist victims of domestic and sexual violence 
and to prevent these crimes are particularly important during 
difficult economic times. The economic pressures of a lost job 
or a home or a car can add a great deal of stress to already 
abusive relationships. The loss of these resources can make it 
harder for victims to escape a violent situation. And as 
victims' needs are growing, State budget cuts are resulting in 
fewer available services, including fewer emergency shelters, 
less transitional housing, less counseling, and less child 
care. A 2010 survey found that in just 1 day more than 70,000 
adults and children were served by local domestic violence 
programs. At the same time more than 9,500 requests for 
services went unmet due to a lack of resources.
    So I think the numbers illustrate the need to maintain and 
strengthen VAWA, the Violence Against Women Act. Its programs 
are very vital, including the STOP Formula Grant program, which 
provides resources to law enforcement agencies, prosecutors, 
the courts, and victim advocacy groups, and the Transitional 
Housing Assistance Grants. You know, in the midst of a mortgage 
and housing crisis, transitional housing is especially 
important because long-term housing options are becoming 
increasingly scarce.
    We are going to welcome a distinguished panel of witnesses 
from around the country who can share important perspectives 
and personal experience. Of course, I know Dr. Van Buren, who 
is well known in Vermont for her work helping women to escape 
domestic violence through the organization Women Helping 
Battered Women. But we have a number of witnesses who will 
speak to this issue. As I said, it has not been a partisan 
issue. We have reached across party lines to do it, just as I 
found we did when I was a prosecutor.
    With that, I will yield to Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. I thank you very much for holding today's 
hearing. There is nothing you said about the need for the law 
that I would disagree with. I am going to raise some questions 
about administering the law and some things that we ought to 
look at that ought to be very carefully reviewed before we 
reauthorize it. But, obviously, I want the law to be 
reauthorized. These are the same questions I would raise when 
we reauthorize any legislation, particularly in these very 
difficult fiscal times that we are having now with the budget.
    This law that we are reviewing today is an important law 
that has helped a countless number of victims across the 
country break the cycle of domestic violence and make an 
environment for people to move to very productive lives.
    The law created vital programs to support efforts to help 
victims of domestic violence, sexual assault, and stalking. As 
an original cosponsor of the Senate version of the 
reauthorization, I remain deeply committed to ensuring Federal 
resources are provided to programs to prevent and end sexual 
assault and domestic violence. There is, however, an 
unfortunate reality, and that is the budget situation that I 
have talked about. We did not face this in 2000 or 2005 when I 
also worked for the reauthorization. During these economic 
times we simply cannot continue to allocate resources without 
verifying the resources are being used as efficiently as 
possible.
    What this means is that as we in this Committee look to 
reauthorize the program, we need to take a hard look at every 
single taxpayer dollar being spent. We need to determine how 
those dollars are being used and if the stated purpose of the 
program is being met.
    Back in 2001, Senator Sessions and I requested Government 
Accountability Office review of the grant programs under this 
bill. That review found that this act's files often lacked the 
documentation necessary to ensure that the required monitoring 
activities occurred. GAO found that ``a substantial number of 
grant files did not contain progress and financial reports 
sufficient to cover the entire grant period.'' These are 
significant problems, and it appears that they continue to 
exist.
    A review of individual grantee audits that were conducted 
in 1998 through the year 2010 by the Justice Department 
Inspector General indicates that the problems with the law's 
grantees' administration recordkeeping may actually be getting 
worse. During this time-frame the Inspector General conducted a 
review of 22 individual grantees that received funding from the 
program. Of those 22 grantees, 21 were found to have some 
violation of grant requirements.
    In 2010, one grantee was found by the Inspector General to 
have questionable costs for 93 percent of the nearly $900,000 
that they received in the grant. Another audit, this one from 
2009, found that nearly $500,000 of a $680,000 grant was 
questioned because of inadequate support of expenditures. 
Another audit in 2005 questioned $1.2 million out of a $1.79 
million grant.
    So the list goes on. Simply put, in today's economic 
environment we cannot tolerate this level of malfeasance in the 
Federal grant programs.
    So how do we fix the program? To start with, we need a 
legitimate, rigorous evaluation of the program, particularly 
the grantees, to ensure that these sorts of grantees are 
prohibited from getting funds. It also means requiring annual 
audits and evaluations. Unfortunately, as our witness from GAO 
will point out today, it is difficult to evaluate grantee 
performances because the data that is provided to the Justice 
Department is often difficult to evaluate. GAO notes that while 
the agencies are making progress to address the gaps in data, 
these important issues need to be addressed by Congress.
    Another issue that must be addressed during the 
reauthorization is immigration marriage fraud. Specifically, I 
am concerned about the reports that some of the procedures 
employed by Citizenship and Immigration Services actually help 
facilitate immigration marriage fraud, and some of it is 
further enhanced by provisions under this law. I am glad that 
we have a witness that is going to go into this.
    As a past cosponsor of this legislation and its 
reauthorizations, I am saddened to hear about these examples of 
how a law that was designed to help victims may be used to 
continue to abuse victims of domestic violence. These are 
important issues that I will bring up during the 
reauthorization. We must do everything in our power to help 
victims of abuse and domestic violence, and that is why this 
bill must be reauthorized. However, we are well past the time 
where we can continue to reauthorize programs without giving 
them scrutiny, particularly in these fiscal times.
    Thank you, and I have a longer statement I want to put in 
the record.
    Chairman Leahy. And all the statements of all the Senators 
will be placed in the record as though read.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Leahy. It is somewhat of a cliche to say our first 
witness needs no introduction, but Dr. Philip McGraw is the 
host of the syndicated daytime television show ``Dr. Phil.'' On 
the show he has raised awareness of a wide range of social 
issues ranging from bullying and drugs to domestic violence and 
child abuse. I know my friend Senator Grassley has appeared on 
the show on adoption issues.
    Senator Grassley. Let me tell you, Senator Landrieu and I 
appreciated being on there because we work in the area of 
foster care, and his program probably got us more attention 
than two Senators could have got the attention of. Thank you, 
Dr. Phil.
    Mr. McGraw. You are welcome.
    Chairman Leahy. In 2003, he created the Dr. Phil 
Foundation. It is a charity that funds projects that benefit 
disadvantaged children and families. Dr. McGraw has supported 
and volunteered for a number of other charitable efforts and 
causes, volunteering in New Orleans immediately after Katrina 
and in Haiti. Having been down there and seeing the devastating 
results of that earthquake, I appreciate that--both places. He 
received his undergraduate degree, master's degree, and 
doctorate in clinical philosophy from the University of North 
Texas.
    Dr. McGraw, it is good to have you here. Please go ahead, 
sir.

 STATEMENT OF PHILIP C. MCGRAW, PH.D., LOS ANGELES, CALIFORNIA

    Mr. McGraw. Thank you. Chairman Leahy, Ranking Member 
Grassley, and esteemed members of the Senate Judiciary 
Committee, good morning. Thank you for inviting me to testify 
before you today about the Violence Against Women Act. This is 
an act that saves lives, and it saves children from the trauma 
of being exposed to the violence that goes on in homes, and I 
am very pleased to say that the decline in reported acts of 
violence against women make it clear that this Act is working. 
So much has been accomplished. We now have coordinated efforts 
addressing domestic and sexual violence.
    But it is the evolution of this Act that will keep it 
relevant; it is the evolution of this Act that will keep it 
effective. And as we are painfully aware, there are 2 million 
women a year that are victimized, meaning that as we sit here 
today, in the first hour of this hearing, if you do the math, 
228 women are being victimized. They are being beaten, 
terrorized, and intimidated as we sit here in the first hour, 
all behind closed doors, all undoubtedly feeling very alone. 
And three of those women will be murdered today. So I am here 
today to join in being a voice for those who are disempowered 
and cannot find that voice yet deserve to live in peace.
    Now, these numbers are alarming, but the reality, Senators, 
is worse, because this is one of the most underreported crimes 
in America. Tragically, untold numbers of victims never go to 
the police, they never go to hospitals, and many of them, 
because they are riddled with fear or shame, do not even tell 
members of their own families. So there is so much work to be 
done to open the dialog about this.
    And, sadly, victims are getting younger and younger. 
Domestic violence is now the most common cause of injury to 
women ages 15 to 44. That is right--15. In fact, among teenage 
girls who are killed, nearly one-third are killed by a 
boyfriend or a former boyfriend. Now, the question is: Who is 
going to step forward to do something about this? And that is 
why I am such a fan of this Act.
    In too many situations, violence against women, young and 
old, is almost treated as an ``acceptable crime,'' and the 
ripple effects through our society are like a tsunami. Intimate 
violence is a wicked problem; it is many-sided. There are so 
many elements to it that it is difficult to wrap our heads 
around it, and it involves both victims and treatment, and it 
is less than perfect, frankly.
    Here is something that really concerns me, Senators. More 
than 10 million children will witness their mothers, aunts, or 
sisters being threatened, intimidated, or beaten by intimate 
partners and family. And, predictably, these children do not do 
well in these toxic situations. They are often traumatized; 
they have a range of interpersonal problems. They have a higher 
incidence of emotional and behavioral problems, mental illness, 
alcohol and drug abuse, and poor academic achievement. Some 
become abusers themselves, and all of this puts a huge strain 
on currently underfunded and overly stretched resources. 
Victims are at risk for repeated and varied violence. It is a 
phenomenon called ``polyvictimization.'' So this is a ripple 
effect that starts with the act of intimate violence, and then 
it spreads to other family members.
    Now, I long ago resolved to never speak unless I felt I 
could add something to the silence. Last year, at the ``Dr. 
Phil'' show, we knew the time had come--to not just add to the 
silence, but to end it by placing the issue of domestic 
violence squarely in the center of our daily platform and 
thrust it into the national dialog. We did so by launching the 
End the Silence on Domestic Violence campaign, and we partnered 
with the National Network to End Domestic Violence, and this is 
a passionate and proactive organization. And we partnered with 
our viewers to become ``Silence Breakers'' committed to bring 
about change.
    We brought in experts from every walk of life, and in an 
unprecedented programming move, we committed and will continue 
to commit countless hours of programming to educate millions of 
women about the resources that are available. And we brought 
real people on the show, not statistics.
    For example, Audrey Hanne--this is a woman--and I show this 
because I want people to know these are real folks. She told us 
that she silently suffered through years of emotional abuse 
from her husband. She says that finally when she tried to 
leave, her husband, turned violent. In a single crippling 
instant, beating her in the head, stabbing her, and then doused 
her with gasoline and setting her on fire, altering her face 
and her life forever. Now, he is currently charged with 
attempted murder and is incarcerated awaiting trial.
    Sandra Tarris says she experienced excessive abuse over the 
course of 4 years that included black eyes, broken fingers, 
choking, and countless death threats. And she says two of these 
happened when she was 6 months pregnant. Her injuries were so 
bad that it cost her her left eye and a cracked skull. She 
tried to get away, but he tracked her down and held her 
hostage. It resulted in a felony assault plea agreement, and 
because of the abuse she has endured to her left eye and damage 
to her optic nerve, she will probably go blind in the other 
very soon. So fearful that he would find her again, she has 
moved 17 times, always looking for a place where she will feel 
safe.
    This precious 3-year-old child was murdered by an abusive 
father in a custody fight. When he could no longer find a way 
to control his ex-wife, he took the life of the child, leaving 
a helpless mother.
    Again, these are not statistics. These are our neighbors. 
They are lost in the dark, hoping someone will come for them 
and lead them to safety.
    As Chairman Leahy said earlier, in today's economic times 
the needs are increasing, but the resources are drying up. A 
2010 census by NNEDV found in a day, 70,600 adults and children 
were served by local domestic violence programs, but 9,500 
weren't. And I worry about those 9,500, Senators, because it is 
during the time that they try to get away from their abuser 
that they are most at risk of being seriously injured or 
murdered.
    Now, bottom line, we need more legislation like this, 
providing critical programs and support. We need better 
coordinated efforts among the courts. And, above all, we need 
to cut through the red tape when a woman is in crisis because 
red tape means red blood is spilled at home. We cannot have 
them bogged down.
    We have to focus on the power of prevention through schools 
and at home. We have to create curriculums to teach the kids 
that it is never OK to put your hands on each other in anger 
and violence. And as husbands and fathers, we have to model 
this.
    On a final personal note, this issue deeply hits home for 
me because I recently became a grandfather, and I am going to 
brag and show my granddaughter here--Avery Elizabeth. I came 
home one day after taping a show on domestic violence, and she 
crawled up in my lap, and I said right then, ``This is the 
first little girl that has been in our family. I want her to 
grow up in an environment where it is safe.'' I want her to 
grow up like all young girls should be able to do, knowing that 
they can have the peaceful existence in their own homes. And to 
do that, we have to have this Act. We have to have the Violence 
Against Women Act.
    I pledge to you today that our campaign to End the Silence 
on Domestic Violence is just beginning. We want to make 
ourselves available to advocate for these victims, to partner 
with you guys in any and every way that we can.
    We are honored to stand with you; we are ready and willing 
to do whatever it takes to contribute to a safer and more 
promising future for the women all across America. Our children 
and grandchildren deserve nothing less.
    I thank you for inviting me to speak here today, and I 
thank you for shepherding and overseeing the Violence Against 
Women Act because it is very, very important legislation. Thank 
you.
    [The prepared statement of Mr. McGraw appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Dr. McGraw, and before the 
hearing began, you and I had a chance to discuss, among other 
things, our grandchildren, and I think we both agreed that is 
the best part of life.
    Our next witness is from Iowa, so I would like to ask 
Senator Grassley to introduce him, and I thank him for being 
here.
    Senator Grassley. Thank you for that privilege, Mr. 
Chairman.
    Michael Shaw is co-director of Domestic Violence & Sexual 
Assault Services at Waypoint Services for Women, Children & 
Families in Cedar Rapids, Iowa. He is a certified sexual 
assault and domestic violence counselor and an experienced 
trainer on a variety of sexual assault and domestic violence 
issues. Mr. Shaw is on the Board of Directors of the National 
Center for Domestic and Sexual Violence and the Iowa Coalition 
Against Sexual Assault. He received his bachelor's and master's 
degrees in social work from the University of Iowa.
    Welcome, Mr. Shaw.

  STATEMENT OF MICHAEL SHAW, CO-DIRECTOR, DOMESTIC VIOLENCE & 
SEXUAL ASSAULT SERVICES, WAYPOINT SERVICES FOR WOMEN, CHILDREN, 
                AND FAMILIES, CEDAR RAPIDS, IOWA

    Mr. Shaw. Thank you very much, Senator Grassley. Thank you 
for inviting me to speak to you today. My name is Michael Shaw. 
I am the co-director of Waypoint's Domestic Violence & Sexual 
Assault Program in the great State of Iowa, Cedar Rapids, Iowa. 
I have worked as an advocate or a volunteer supporting 
survivors of sexual violence since 1993. Before the passage of 
the Violence Against Women Act in 1994, there were gaping holes 
in our country's response to sexual violence. Reports such as 
``Rape in America: A Report to the Nation'' in 1992 and ``The 
Response to Rape: Detours on the Road to Equal Justice'' in 
1993, showed our governmental systems had essentially left 
survivors of rape to fend for themselves. VAWA, cosponsored by 
then-Senator Joe Biden and Senator Orrin Hatch, began to remedy 
these issues by strengthening systems of victim support and 
criminal accountability. I will briefly talk about the impact 
of VAWA for sexual assault survivors and reflect on what VAWA 
means to me personally.
    VAWA saves lives. The first time I answered a rape crisis 
line in 1999, the caller said ``I am going to kill myself.'' 
That was a scary first call, but I had excellent training to 
help me support her. I listened for close to an hour as she 
talked about wanting the pain of her rape to go away.
    For more than 17 years, VAWA has supported the training of 
thousands of victim advocates, police officers, and medical 
professionals on the best ways to support rape survivors.
    VAWA provides supportive services to help victims of sexual 
assault and their children stay safe and rebuild their lives.
    Last year, we received a call on our crisis line from a 
mother--I will call her Janet--who had just found out her 
daughters had been sexually abused. What I will share about 
this story will sound like a life falling apart, but if you 
listen carefully, you will hear how she is laying the 
foundation to rebuild her life and the lives of her children.
    On the first call, Janet did not know what to do. Her 9-
year-old daughter had just told her that a man they trusted was 
touching her private area. The advocate listened and responded 
with compassion.
    A couple of days later, Janet called back and said her 14-
year-old daughter had just confirmed that the same person had 
sexually abused her. Once again an advocate listened and 
offered support.
    A couple days later, Janet called back and disclosed that 
she had been a victim of sexual abuse. I took that call. Not 
only was she devastated by what her children were telling her, 
but now she was dealing with the trauma she had experienced. 
Janet had never told anyone about her own abuse.
    While this may seem like a life falling apart, please note 
that Janet kept calling back. She had someone to talk to when 
she needed it most. We offered Janet a sounding board so that 
she could then give her children calm, reliable, non-judgmental 
support, which experience and research has shown is essential 
to healing for children, and we supported Janet as she talked 
about her own trauma. The VAWA-supported services helped a 
woman lay the foundation to heal from her own child sexual 
abuse and helped her support her children to do the same.
    VAWA saves money. In its first 6 years alone, VAWA saved 
taxpayers at least $14 billion in net averted social cost. 
These social costs include medical and mental health care 
needs, missed hours of work, increased substance abuse, and 
difficulty achieving educational goals.
    Rape is the most costly of all crimes to its victims, with 
total estimated costs at $127 billion a year.
    Skilled advocates provide victims with emotional support 
and help them figure out their next steps. The VAWA-supported 
services are an investment in the lives of sexual assault 
victims.
    Each subsequent reauthorization of VAWA has improved the 
scope of comprehensive services for victims. VAWA 2000 
strengthened community protections for immigrant victims of 
sexual assault by funding training to improve law enforcement's 
response to immigrant victims.
    VAWA 2005 included the first Federal funding stream to 
support sexual assault survivors regardless of their 
involvement with other systems with the Sexual Assault Services 
Program. Rape Crisis Programs across the State of Iowa have 
used these dollars to improve and enhance services to sexual 
abuse survivors.
    Finally, the Violence Against Women Act is more than just a 
law to me. VAWA is part of a collection of resources that 
indicates our country is progressing toward a goal of a society 
free of sexual violence. Believing that a violence-free world 
is possible is part of what sustains me as an advocate.
    Frequently, when I tell people what I do, they respond 
``Wow, that must be depressing work,'' or they try to avoid eye 
contact because nobody really wants to talk about rape. Some 
days it is hard, but listening to survivors keeps me going. 
Long ago I made a commitment to listen to survivors as long as 
there were survivors needing support. Survivors' voices inform 
my administrative work and my prevention efforts. Victims' 
voices inform every decision I make as a co-director and, most 
importantly, they remind me to feel the work, to care about the 
work. They remind me that I am part of a movement.
    In 2000, I heard Cassandra Thomas, then-Vice President at 
the Houston Area Women's Center, speak. She eloquently and 
passionately expressed what I was feeling as an advocate and 
the father of three children. She challenged us by saying:
    ``Some of you all are doing field work. I joined a 
movement, and the canvases look real different depending on 
whether you are movement people or field people.''
    ``So now, will your canvas be a movement canvas--a canvas 
about social change, a canvas about destroying patriarchy that 
has set up a system of sexual violence? Or are you just going 
to do counseling groups? What is your canvas going to look 
like? Now do not get me wrong. I want more money for 
counselors. I want to have some groups. But I am not just doing 
social service. If that is what you are doing, let me just tell 
you something, your canvas is going to look way different, 
because I am about making sure my 5-year-old child never sits 
in a group, that my 5-year-old child never goes to a hospital 
for a rape kit. That is what I am about, and social service 
will not do that for me. I need movement, folks. A field just 
lays there.''
    Senators, I believe you, I, and VAWA are part of a 
movement, and we must do everything in our power to support 
survivors, hold perpetrators accountable, and move inexorably 
toward a world that is free of sexual violence for our children 
and their children. I strongly encourage you to continue 
building on the accomplishments of the last 17 years by swiftly 
reauthorizing an improved VAWA.
    Thank you.
    [The prepared statement of Mr. Shaw appears as a submission 
for the record.]
    Chairman Leahy. Thank you very much.
    We are in a few minutes going to have a couple roll call 
votes on the floor, but Senator Grassley and I have talked 
about it. We are going to try to keep the hearing going, so if 
you suddenly see people jump up and leave, it is not because of 
something you said. It is because as you will see on the clock 
up on the wall behind you, when first one light goes on, that 
will mean a vote. When five white lights go on, that means drag 
yourself over there in a hurry.
    Our next witness is from Vermont. Dr. Jane Van Buren is an 
old friend, and she is the executive director of Women Helping 
Battered Women in Burlington, Vermont. That is a nonprofit 
organization that provides services to victims and survivors of 
domestic violence and abuse. In a 1-year period between July of 
2009 and July of 2010, Women Helping Battered Women provided 
help and services to more than 4,400 women and their children. 
In our small State, that is a great deal. Prior to joining 
Women Helping Battered Women, Dr. Van Buren was the founding 
director of the Vermont Alliance of Nonprofit Organizations. 
She is an adjunct professor at the University of Vermont, 
Johnson State College, and my own alma mater, St. Michael's 
College. She received her master's degree in public 
administration from Northeastern University and her doctorate 
in management from Case Western Reserve University.
    We are delighted to have you leave the cool hills of 
Vermont to come down to the somewhat less cool atmosphere of 
Washington. Go ahead, please.

  STATEMENT OF JANE A. VAN BUREN, PH.D., EXECUTIVE DIRECTOR, 
    WOMEN HELPING BATTERED WOMEN, INC., BURLINGTON, VERMONT

    Ms. Van Buren. Good morning. Thank you, Senator Leahy, 
Senator Grassley, and other distinguished members of the 
Committee. Thank you for the opportunity to talk about the 
importance of VAWA, in particular how my organization, Women 
Helping Battered Women, has used crucial VAWA funds to serve 
victims of domestic violence and their children successfully in 
the State of Vermont.
    Women Helping Battered Women was founded in 1974 to provide 
emergency shelter to women fleeing abuse. From 1974 to 1994 our 
advocacy consisted of sheltering women and children, responding 
to hotline calls, and helping women secure relief from abuse 
orders. There was no money for paid staff, but volunteers kept 
the shelter doors open and answered the hotline calls. We were 
a valuable resource in the community, but our services did not 
go far enough. Victims with no money, no credit, no employment 
history, and no confidence in their ability to be self-
sufficient or to keep their children safe, fed, and housed all 
too often ended up returning to their batterer. They lacked the 
resources to do anything else. Their choice too often came down 
to a life of violence or a life on the streets.
    What VAWA has allowed us to do is provide women, men, and 
children with programming that is comprehensive and sustainable 
and which ultimately leads victims to independence and freedom 
from violence. This landmark legislation filled a void in 
Federal law that had left too many victims of domestic and 
sexual violence without the help they needed to restore their 
lives.
    Over the past 17 years, Women Helping Battered Women has 
built a strong response to domestic violence in Chittenden 
County, Vermont. This includes support and counseling for 
children exposed to and affected by violence, transitional and 
emergency housing, legal advocacy and collaboration with law 
enforcement, employment and job readiness training, credit 
counseling and repair, crisis intervention, safety planning, 
and extensive public education and training.
    I would like to tell you my own stories, one about Betsy 
and one about Rachel, two women that we have served.
    Betsy has advanced multiple sclerosis and has been living 
on a limited income since she lost her ability to work. She 
called our hotline in crisis because her partner was 
threatening her life and controlling her finances. He used her 
credit cards without her knowledge, and the high payments were 
too much, forcing her to miss some payments and then forcing 
her to be financially dependent on her abuser for basic needs 
such as housing and food.
    When Women Helping Battered Women first spoke with Betsy, 
we discussed her options for leaving her current situation and 
regaining her independence. Our shelter was full, so we 
accessed Vermont's Emergency Assistance Fund and housed Betsy 
in a local motel. Betsy was eligible for 28 days in a motel, 
during which time she was required by the State to conduct a 
housing and job search. This was a challenge given Betsy's 
financial and physical limitations, coupled with the high 
rental costs and low vacancy in Chittenden County. In addition, 
many landlords--most, in fact--require credit checks, security 
deposits, and first month's rent. The total amount due up front 
would be close to $1,500, an impossible amount for Betsy.
    Luckily, Betsy was eligible for rental assistance from 
Women Helping Battered Women as part of our VAWA Transitional 
Housing Program. We helped Betsy find an accessible apartment 
and met with the landlord to clarify the details of her damaged 
credit score. Today Betsy is living in her new apartment and 
working closely with our THP staff to reduce her debt and 
repair her credit. Betsy has been independent and free from 
violence for the past 9 months.
    My second story is about Rachel, who fled her batterer and 
came to our emergency shelter in Vermont from another State. 
When she arrived, her behavior was erratic because her husband 
had been keeping her from taking her medication for bipolar 
disorder. Without her medication, Rachel suffered prolonged 
depression and had stopped taking care of herself and her 
child, and eventually the State removed the child from her 
home. This chain of events spurred Rachel to flee, vowing to 
regain custody of her daughter.
    In order for her to regain custody, Rachel needed to 
stabilize her mental health and her housing. Fortunately, a 
two-bedroom apartment had recently opened up at Sophie's Place, 
which is our 11-unit transitional housing apartment complex. 
There, Rachel was able to work with Sophie's Place staff to 
improve her resume and interview skills, work with our STOP-
funded legal advocates on her child custody case, and maintain 
stable mental health. After 5 months, Rachel secured an 
excellent job at the local university and was able to regain 
custody of her daughter. Today they are living safely and 
happily at Sophie's Place.
    Stable housing makes it much easier for survivors of 
domestic abuse to successfully access our empowerment-based, 
economic justice advocacy services that are the hallmark of 
Women Helping Battered Women's work. Our service users have 
access to economic literacy training, credit counseling and 
repair, debt management, advanced housing advocacy including 
homeownership counseling, and employment and training 
opportunities. Survivors in transitional housing have the 
opportunity to develop individualized plans to help them 
maintain their housing or move from homelessness into permanent 
housing.
    VAWA funds make all of this possible, and by maintaining 
the funding for transitional housing services and coordinated 
community response services through STOP, Congress has the 
unique opportunity to help victims regain strength and 
confidence and reduce their reliance on public programs by 
enabling the move to permanent housing and lifelong financial 
independence.
    Thank you very much.
    [The prepared statement of Ms. Van Buren appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Dr. Van Buren.
    Our next witness is Julie Poner. Did I pronounce that 
correctly? Thank you. She is the mother of twins, currently 
living in Indianapolis, Indiana. She will speak about her own 
difficult ordeal, but she has worked to help combat 
international child abduction to prevent the misuse of current 
provisions of the law for green card fraud.
    Ms. Poner, please go ahead.

        STATEMENT OF JULIE PONER, INDIANAPOLIS, INDIANA

    Ms. Poner. Thank you, Senator Leahy. Thank you, Senator 
Grassley.
    In 1994 I married a man from the Czech Republic. We were 
married in Prague, and our children--twins, a boy and a girl--
were born there. We moved 12 times in the 3 short years we were 
together between three countries and two continents with our 
young children in tow. Our moves were always explained to me as 
necessary for business, when in reality we were living life on 
the run, managing to stay one step ahead of the authorities. 
Sometimes we lived with furnishings and sometimes without. My 
children and I were often left alone for extended periods of 
time without the basic necessities such as food, a vehicle, and 
money.
    In 1995 following a sudden and unexpected move to the U.S., 
we eventually settled in Massachusetts and filed for my 
husband's permanent residency status. Within days of receiving 
notice of our impending interview with INS, my husband reached 
around me for the coffee pot one morning and announced that we 
would be getting a divorce now. He instructed me to file for 
the divorce and continue to sponsor him for his green card. 
After filing for the divorce, my husband became abusive toward 
our children and threatened to take them back to the Czech 
Republic if I did not sponsor him for his green card.
    As part of our divorce proceeding, our family court judge 
ordered me to attend my husband's immigration interview. While 
at the interview I was told by INS agents that I could face 
Federal prosecution for marriage fraud if I continued to 
sponsor my husband. They explained that he met no legal 
requirement to be in the country except through our marriage. I 
was strongly encouraged to withdraw my petition. I did, with 
the understanding that I was complying with our Federal 
Government and with Federal law.
    Facing deportation for marriage fraud, a charge leveled by 
the Federal Government, my husband, a former professional 
hockey player, at 6 feet, 2 inches tall and over 200 pounds, 
self-petitioned as a battered and abused spouse. It was at this 
point that all communication I'd had with the two INS trial 
attorneys stopped, because once an immigrant files under this 
special circumstance they are protected by our Federal 
Government. Immigration officials are prohibited from entering 
into a discussion with the American named in the claim.
    As a result, my children and I suffered unimaginable 
consequences. The family court judge failed to heed the 
testimony of a child abuse investigator for the DA's office. In 
order to protect my children from further abuse and the 
continued threat of abduction, I left the State. I was 
subsequently arrested by two FBI agents and a sheriff, 
fingerprinted, photographed, strip-searched, deloused, jailed, 
and held on a $500,000 bond. I was extradited back to the State 
of Massachusetts in handcuffs and shackles by two Massachusetts 
State troopers. My children were placed in foster care and for 
a 3-month period we were poked and prodded by various court-
appointed experts to no finding before my children were 
returned to me.
    During this time, in a case unrelated to ours, my ex-
husband served a year on probation for assault and battery. 
After 2 additional years he agreed to allow us to legally leave 
the State of Massachusetts. He'd wiped me out. I had nothing 
more for him to take. My children and I were left with no home, 
no car, no money, no furnishings, no insurance of any kind, and 
with hundreds of thousands of dollars of his debt.
    Today I have sole custody of my children. Over the years I 
have talked with countless men and women who have similar 
stories to tell, American citizens who have lost access to 
their children, their homes, their jobs, and in some cases 
their freedom because of false allegations of abuse. Currently 
there are no safeguards in place to prevent fraud or to prevent 
an immigrant from fabricating tales of spousal abuse. Through 
unfounded claims, immigrant spouses can bypass the 2-year 
marriage requirement enacted by the Immigration Marriage Fraud 
Amendments of 1986 that were actually established to prevent 
marriage fraud. No one from a local USCIS Service Center 
investigates or conducts a face-to-face interview with the 
immigrant. The only evidence considered is what is submitted by 
the self-petitioning immigrant, and the entire process is 
handled via paperwork in the Vermont Service Center. Because of 
confidentiality clauses and concerns for victims' safety from 
their alleged abuser, claims of battery and abuse go 
unchallenged. In cases of domestic violence, the immigrant is 
presumed to be the victim. It is also presumed that no one 
would ever lie about being a victim and that an immigrant has 
nothing to gain by lying about domestic violence. The 
evidentiary standards of proof of abuse have been relaxed to 
further protect the alleged victim. For instance, if the 
American citizen spouse discovers infidelity or other 
fraudulent behavior on the part of the immigrant, and as a 
result withdraws his/her support for the joint petition, this 
can be considered emotional abuse.
    We respectfully ask that you please consider amending VAWA 
and the Immigration and Nationality Act, requiring a local 
USCIS agent to conduct a proper and thorough investigation into 
these types of cases which would include access to interview 
both spouses in the process.
    Thank you.
    [The prepared statement of Ms. Poner appears as a 
submission for the record.]
    [Applause.]
    Chairman Leahy. Thank you very much.
    Incidentally, everybody here is a guest of the Senate, and 
whether it is somebody who is agreeing or disagreeing with any 
of our positions here, there will be no demonstrations of any 
sort. That is the rule that we always follow here. And I 
appreciate the guests who are here. I want this to be something 
where everybody who is here is able to observe the hearing. We 
are also simulcasting this, as I understand, on our website.
    Our next witness is Eileen Larence. She is the Director of 
Homeland Security and Justice Issues at the U.S. Government 
Accountability Office. She manages the huge influx of 
Congressional requests regarding law enforcement and the 
Department of Justice. Ms. Larence holds a master's degree in 
public administration.
    I appreciate you being here. Thank you very much.

STATEMENT OF EILEEN R. LARENCE, DIRECTOR, HOMELAND SECURITY AND 
 JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Ms. Larence. Thank you. Chairman Leahy and Committee 
members, I am pleased to be here today to participate in your 
hearing on accomplishments achieved under the Violence Against 
Women Act.
    As the other witnesses have also pointed out, Federal grant 
funds provided under the Act have meant that many victims of 
crimes such as domestic violence and sexual assault receive 
critical care and support, such as counseling, legal, and 
housing help. Making sure that scarce Federal dollars are doing 
all they can to provide these services is important, especially 
in these austere times.
    In the 2006 updates to VAWA, Congress gave GAO a task: help 
the Congress obtain data to determine just how big a problem 
the Federal Government is trying to address and where the 
Congress may need to target funds to fill gaps and what mix of 
investments to make.
    Specifically, the Congress asked GAO to determine how 
prevalent is domestic violence, sexual assault, dating 
violence, and stalking among women, men, youth, and children, 
and what federally sponsored services are these groups of 
victims receiving for these crimes.
    In summary, GAO found that comprehensive data did not exist 
and could not be reconstructed to answer all of these 
questions. We found that data did not exist on how prevalent 
these crimes are nationwide among the four victim groups for 
several reasons:
    First, little national research existed on some crimes such 
as stalking.
    Second, it is too costly to design a new single research 
effort or survey to collect all of this data.
    Third, existing research or surveys cover portions of these 
crimes, such as domestic violence, or certain segments of the 
population, such as adults over 18. But because the scope of 
these efforts varied in this way and they used different 
definitions of these crimes and victim groups, we could not 
combine results to develop a nationwide picture. Therefore, we 
determined that some important information gaps exist such as 
on the prevalence of youth dating violence and stalking. We 
recognize that perfect data may never be available, since 
victims may be reluctant to report these crimes, or affordable. 
However, stakeholders recognize that prevalence data helps to 
make informed policy and research decisions. Thus, we recommend 
that the Departments of Health and Human Services and Justice 
identify possible ways to fill gaps, either by revising 
existing research or surveys or designing new ones if agencies 
could fund them.
    We also recommended that agencies develop common 
definitions where possible. In response, agencies have several 
new initiatives that will help to fill some but not all of 
these gaps. Agencies also have either developed or are updating 
some common definitions and using them in various research and 
survey efforts, although their use is not uniformly required.
    We also found that looking across 11 grant programs 
providing services to victims, comprehensive data showing the 
services women, men, youth, and children receive by type of 
service did not exist. Such data can help to identify gaps and 
inform investment decisions. Agencies are collecting extensive 
data on the activities that grants fund, such as the numbers of 
individuals served, and for some programs data on victims' 
demographics to help account for program accomplishments. But 
agencies cannot distinguish the kinds of services men, women, 
youth, and children are receiving for all grant programs due to 
several reasons.
    First, the statutes governing the grant programs do not 
require that data be collected this way.
    Second, the statutes created grant programs for different 
purposes so that the data collected differ.
    Agencies also expressed concerns that obtaining such data 
could inadvertently identify a victim, jeopardizing the 
person's safety. In addition, we found that the data recipients 
provide might not be uniform or consistent. For example, some 
recipients said they determined the victims race by visually 
observing the victim while others had the victim provide these 
data. However, both agencies say they have taken a number of 
steps to address the quality of data reported and have seen 
significant improvements.
    Furthermore, agencies did not think some recipients would 
have the resources or access to technology and that some 
recipients who obtained funds from many different sources would 
be unduly burdened if reporting is too prescriptive. Finally, 
Federal agencies stated that they would face costs changing 
their own data collection systems. Because of these concerns 
and potential cost, we did not recommend that Federal 
departments change existing recipient reporting. However, our 
findings may offer some observations moving forward.
    Congress may want to work with agencies as they approach 
reauthorization and changing existing or creating new programs 
to determine: First, what do agencies already know about the 
impact of VAWA and what grant funds have accomplished? What 
other critical questions will Congress and agencies want to 
know, for example, 3 or 5 years out? And, therefore, what data 
will they need to collect now?
    Agencies already spend a lot of money collecting a lot of 
data. Are they using it as best they can to help determine if 
the Government is making the right mix and level of 
investments, what difference these investments are making over 
time, and how to shape the future mix of investments?
    Finally, what will it cost to collect new data to help 
answer these questions? And is the cost worth the benefits? 
This is especially important because we recognize that the 
tradeoff decision to spend less money on services and more on 
collecting data to assess results can be difficult, but also 
critical to addressing these somber crimes.
    Mr. Chairman, that concludes my statement, and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Larence appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much.
    I would just make a couple points here on Ms. Poner's 
testimony. I can only imagine what a nightmare that must have 
been that you went through, and I have asked my staff t meet 
with you again after this hearing and get more details. We 
obviously need professionals who are trained to identify 
victims and make sure they are treated properly, and I know of 
the work the Vermont Service Center and the specialized VAWA 
unit there does, but if there is fraud in the system, we want 
to get rid of that because it harms bona fide applicants. And 
that is why I support as much transparency as we can, and I do 
want to follow up with you because we also handle immigration 
matters here in this Committee, and I want those to work the 
way they should and not to the detriment of people like 
yourself or your children.
    Dr. Van Buren, you have gone over a number of things, 
talking about what we have done in the past. We know there are 
probably unmet needs today. If you were to point out one of the 
most significant unmet needs today, what would that be?
    Ms. Van Buren. I would have to say it is housing, lack of 
affordable housing. There is just a low census of available 
housing in Chittenden County, and so, as I said in my 
testimony, it is really often if you cannot find housing you go 
back to your batterer, and that is not the situation we want to 
see.
    Chairman Leahy. Thank you for that, and I would note for 
those who are not familiar, Chittenden County is the greater 
Burlington area where we have nearly a quarter of our State's 
population in that one county. There are 13 other counties 
besides that, and housing is very tight and very expensive 
there by Vermont standards.
    Mr. Shaw, what needs are currently unmet for the victims of 
sexual assault?
    Mr. Shaw. What we are addressing recently is the reduction 
in funding and resources available for us to support victims of 
violence. In 2010, a survey of the rape crisis centers found 
that 72 percent of the rape crisis centers experienced funding 
losses in the past year. Of those centers that experienced 
funding losses, 73 percent of the lost funds were State funds, 
76 lost local funds, and 46 percent lost Federal funds. That 
type of funding reduction reduces our ability to be able to 
answer the crisis line, to be able to provide the best support 
to victims when they are needing our support.
    Chairman Leahy. And, Dr. McGraw, you talked before about 
your--actually a season-long program on domestic violence, and 
one of the things I have been impressed with, when you help 
survivors on your show, you partner with a number of local and 
national organizations and programs addressing domestic 
violence. You have had experience with a lot of that, and these 
victims come from all over the country. What kind of role do 
these organizations play in helping victims escape violence?
    Mr. McGraw. Well, Senator, they are absolutely critical at 
both the national and the local level. In an unprecedented way, 
we have just spent countless hours of programming about this 
because we wanted to raise awareness. We wanted to teach women 
what violence is--sometimes they do not know when something has 
crossed the line--and then we want to point them to resources. 
And if we do not have organizations like NNEDV and the domestic 
violence hotline and then the local emergency shelters--look, 
this is a grass-roots thing, and if a woman is in crisis and 
she does not have a safe place to go, then she is in the 
greatest jeopardy that she will ever be in her life.
    So it is these organizations that they're in the trenches 
with these women and with these children. We can point them to 
the resources, but as you say, they are from all over the 
country. We cannot go home with them all. But these 
organizations do. They meet them in the middle of the night. 
They talk to them at 2 and 3 o'clock in the morning, and they 
keep them safe and secure from their abuser.
    We've also had a real dialog with some of the organizations 
that do the research that informs this kind of legislation--
NIMH, NSF. We need to increase funding to them so they can tell 
us what this legislation needs to deal with. As I said, this is 
what we call a wicked problem. It is more than just prevention. 
You have to have education, you have to have prevention, you 
have to have remediation. These women have anxiety, depression, 
PTSD, all sorts of things in the aftermath, as do the kids. So 
these organizations are the ones that really step up, and let 
me tell you, NNEDV, these guys are champions in this realm, and 
they do terrific, terrific work.
    Chairman Leahy. Thank you. I am going to go and vote. 
Senator Franken, were you going to go vote? And, Senator 
Whitehouse, have you voted?
    Senator Whitehouse. I have voted.
    Chairman Leahy. Then I am going to turn it over to Senator 
Whitehouse, and then I know Senator Grassley is on his--
actually, I will turn it over to Senator Grassley first because 
he is back, and then go to you, Senator Whitehouse. Thanks, 
Chuck.
    Senator Grassley. I know this just confirms for all of you 
how chaotic Congress is.
    [Laughter.]
    Senator Grassley [presiding.] Thank you very much, Mr. 
Chairman.
    I am going to start, first of all, by thanking everybody 
for coming, and I have already highlighted my relationship with 
Dr. Phil, and thank you for coming and bringing attention to 
this issue, as you have so many other issues.
    I am going to start with Ms. Larence. Your written 
testimony concludes, ``As Congress considers moving forward on 
this bill, it should consider important issues such as 
obtaining data necessary to determine the prevalence of 
domestic violence and sexual assault.'' However, your testimony 
also notes that this data is lacking because grant recipients 
often do not have data collection systems to collect and 
maintain the information.
    As we consider reauthorizing the legislation, what types of 
reforms should we be considering for the Department of Justice 
and Health and Human Services Department to ensure that grant 
recipients are collecting and reporting accurate data?
    Ms. Larence. Thank you. Senator Grassley, we looked at two 
issues in our review. One was looking at how do we know how big 
the problem is. We fund a lot of research and surveys to try to 
obtain data on the prevalence of these crimes, especially by 
group--men, women, youth, and children. Do the agencies have an 
opportunity to use that data that they have collected to 
establish a baseline and track over time how these trends in 
crime are changing to help educate the Congress about the mix 
of services they might want to provide?
    The second area we looked at is--do we have data on the 
types of services we are providing across these groups? And we 
found that trying to get that data is challenging to a number 
of the recipients. But we do collect a lot of data right now 
from the recipients, data on the number of services provided, 
the number of services they were not able to provide, the 
number of people that we hire, the number of training that we 
provide. But it is hard to put that data into context. What 
does all of that mean? Do we have some goal or target of change 
or progress that we are trying to make? Do we have indicators 
that we are tracking over time, again, to help us determine 
where best we should make these investments? And are we making 
them in areas that have demonstrated effectiveness?
    Senator Grassley. And so the latter point is what you say 
we need more information on? Is that right? Is it quantifiable?
    Ms. Larence. I think we need to be careful and take into 
consideration the challenges that some recipients will have in 
providing this data, but I think we can look for opportunities. 
Can we get data in more detail to be able to make these 
investment decisions? But, also, do we have opportunities to 
use the data we already collect in better ways to help us judge 
what return we are getting on our investments in these 
programs?
    Senator Grassley. Your testimony also outlines how there 
are 11 various authorizing statutes for grant programs that 
address domestic violence, and among other things that each of 
these different statutes requires different information. In any 
reauthorization, should Congress consider streamlining these 
data requirements to provide uniformity? And if so, what would 
be the benefits of similar data requirements?
    Ms. Larence. We did talk to the departments who recognized 
that across the different statutory provisions there are 
differences in the requirements that Congress has imposed. Some 
have been very specific and prescriptive, and others have been 
fairly general. So I do think that efforts to try to reconcile 
the data requirements and evaluation requirements across the 
programs would help the agencies to be able to collect more 
consistent information that would allow us to leverage that, 
add it together, and get a better picture nationwide of what is 
happening.
    Senator Grassley. Ms. Poner, I thank you for coming and 
telling your story. It is very eye-opening, particularly as to 
how the best-of-intentioned laws can be abused. While I know 
you are not an expert on the topic of immigration, I understand 
that you have spoken with other individuals who have had 
similar experiences where this law was used fraudulently as a 
tool to manipulate access to green cards.
    Two questions for you: Do you believe that Congress should 
include provisions strengthening the law to ensure that it is 
not abused simply to obtain U.S. citizenship or maybe even 
being here legally? And if you agree with that, what reforms 
would you suggest?
    Ms. Poner. Yes, I do agree, and what we are simply 
suggesting is that a local USCIS agent be allowed to 
participate in the process with the Vermont Service Center in 
identifying who the true victim is in the process. That is all 
we are asking.
    Senator Grassley. Okay. And what else would you like to 
share with us about how you were impacted by the law? What do 
you think is most important for us to know about this law being 
abused?
    Ms. Poner. Well, beyond what I shared with you personally, 
I can only tell you that I have spoken with countless men and 
women who have similar stories, but more importantly, the 
common experience with immigration officials and the process 
once an immigrant is able to file under VAWA, under that 
special circumstance, and at that point the American is 
eliminated from the process. And so in that way our stories are 
all the same.
    Senator Grassley. Okay. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Senator Grassley.
    The first question I would like to ask has to do with the 
nexus between the experience of domestic violence and the state 
of our present economy. I am from Rhode Island, and from our 
shelters and victim support groups in Rhode Island, I am 
hearing anecdotal evidence that as economic stresses have 
increased on families, the caseload for women's shelters and 
for domestic violence groups has spiked upwards at the same 
time that Government funding support for these organizations 
has been pinched by the very same economic downturn. I do not 
know if you have more information than just the anecdotal 
reports that I am hearing from Rhode Island, but I would like 
to hear your thoughts on that question, and then I will go on 
to another topic.
    Mr. McGraw. Well, Senator, I would like to speak to that, 
if I could, because in the work we do on the show, we work with 
NNEDV, which is a national organization, and we have affiliates 
in every market in the country, and so we hear from every one 
of them. And there is a trickle-down effect here. As there is 
stress economically, financially, then there is anxiety and 
conflict and blame, and so that trickles down into distress 
within a marriage, which oftentimes turns violent. And we have 
had reports from various communities that since the economic 
downturn, their spikes have been as much as 400 percent up in 
terms of the calls that they are getting, the requests that 
they're reaching out for and the help that they are reaching 
out for.
    The problem is if they do not have that help, then they 
either stay with the abuser or they go to a hotel where they 
are easy to find, and that is the separation assault. That is 
when people get killed. That is when they get seriously hurt.
    So there is a definite trickle-down effect from the 
economic pressure to the marital stress that deteriorates into 
mental, emotional, and physical abuse, and it is not anecdotal. 
It is epidemic, and we deal with it every single day.
    We drive our program content by what we get from our 
viewers, and the letters that we are getting number in the 
thousands and thousands and thousands of people that are caught 
up in this.
    Senator Whitehouse. Do other witnesses agree with Dr. 
Phil's observation?
    Ms. Van Buren. If I could add, I agree completely, but what 
I would add is that at Women Helping Battered Women, we have 
seen an increase of people wanting emergency shelter, a 39-
percent increase over the last 3 years. But what is significant 
from our point of view is not that that has increased, although 
that is significant, but that the depth of their need is much 
greater. We are spending a lot more time with each individual 
woman or individual victim. It is not just finding them 
emergency shelter. It is helping them with credit repair; it is 
helping them find a job; it is helping them gain back their 
self-sufficiency and their independence. That has become 
increasingly challenging over the past few years.
    Senator Whitehouse. So greater incidence and depth of need.
    Ms. Van Buren. Much greater depth of need, yes.
    Senator Whitehouse. Okay. The other topic that I wanted to 
address is children who witness domestic violence. I have two 
questions about that. One, are you aware of particular best 
practices that you would highlight in terms of dealing with the 
problem of children who witness domestic violence? And the 
second related question is that I was the Attorney General in 
Rhode Island, we had a domestic violence unit. I was the U.S. 
Attorney. I have some history with this, and I had the 
experience that on, you know, fairly regular occasions we came 
across victims who had put up with a great deal of 
victimization well after they knew that something was seriously 
wrong, and they were willing to take it on themselves because 
their feeling was that it was protecting their children, that 
it was for the sake of the family, that they did not want to be 
the ones who broke up the family unit. And that suggested to me 
a lack of communication with the victims about the effects that 
what the children were witnessing was really doing to them and 
it really was not in a child's interest to be kept in a 
household in which domestic violence is the way that the 
parents do business.
    So if you could comment on children who witness in those 
two veins, both with respect to best practices and what kind of 
communications opportunity that provides to empower women to 
make a prompt decision to get away from the domestic violence 
and not be trapped in it by their mistaken sense that it is 
actually for the good of their children to put up with it.
    Mr. Shaw. If you do not mind, I would like to speak to the 
first question, Senator, in terms of best practices and 
addressing child witnesses of domestic violence, and sexual 
violence as well. What we have identified as best practices is 
supporting moms in re-establishing their relationships with 
their children, because a significant part of the battering and 
the abusive behavior is undermining mom's relationships with 
the children. The children are--their relationships are being 
undermined, but also the children are being trained that this 
is a part of how families interact, moms and dads interact with 
each other. So supporting what we found as best practices, 
supporting moms and re-establishing their authority and their 
relationships with their children as the mom, as the important 
authority figure, somebody that cares for them. That is 
something that we have talked about a lot and actually 
developed some programming around that in our agency.
    Mr. McGraw. If I could add to that, Senator, I have had 
many child and adult tell me, ``Dr. Phil, I would rather be 
from a broken home than live in one.'' And I think what they 
are saying is exactly what has been said, that, look, children 
have needs, and all children have needs--needs for acceptance, 
needs for predictability, needs for security. When they go into 
a divorce situation, they go into a fragmented family, they 
have the same needs. They just become very exaggerated. They 
look for somebody that can run the business of the family. We 
are still going to get up in the morning, we are still going to 
get dressed. I am expected to do my homework, I am expected to 
do this. They are looking for somebody to run the business of 
the family. And we hear so often when these situations are 
happening, ``Well, they should take those children away and put 
them in foster care.'' Well, as Senator Grassley knows--along 
with him I am very involved in the foster care system--this is 
a broken system. And to take a child from a biological parent 
and put it into foster care is a last-ditch effort of what we 
should do.
    So we need to support these mothers and these fathers, and 
to do that we have got to get trained resources to the courts. 
I mean, you know from your role as Attorney General, we have a 
breakdown right now between family court and criminal court. 
You have abuse alleged in family court. This is a crime. This 
should be in the criminal court. They should at least talk to 
each other back and forth.
    I spent a year of post-doctoral training to become a 
forensic psychologist. We need people to determine where the 
allegations are true, because every woman that says she is 
abused and battered is not. It is just simply not the case. And 
so sometimes they use it as a lever to get what they want. We 
need skilled evaluators that can determine where this child can 
get their needs met the best in terms of security, safety, 
predictability, and continuing in their life. And we need to be 
fiduciaries for the children--not political but fiduciaries for 
them. What is in their best interest? And most often it is 
staying with a biological parent. And in this situation it is 
often the wife, the mother.
    Ms. Van Buren. Can I just add one quick thing about public 
schools? I think we also need to increase the amount of 
resources going into public schools to work with children to 
help them--you know, support groups in schools, identify those 
problems really early on, and school is one of the best places 
to do that.
    Senator Whitehouse. Thank you, Senator Grassley. I went 
well over my time, but since it was just the two of us, I 
figured that was all right.
    Senator Grassley. It is Okay.
    Senator Whitehouse. I appreciate your indulgence.
    Senator Grassley. I think I will take advantage before I go 
to cast the second vote to ask my second round of questions. I 
am going to direct this first question to Dr. Phil and to Ms. 
Larence.
    In 2002, following a request from Senator Sessions and 
myself, the Government Accountability Office testified before 
our Committee here that grant files for discretionary grants 
awarded to the Justice Department often lacked documentation. 
The agency added that grant files did not consistently document 
monitoring activities. They did not contain progress and 
financial reports sufficient to cover the grant, that neither 
the Justice Department nor the GAO could determine the level of 
monitoring performed by grant managers. So there is a lack of 
accountability, and I gave you that figure about how the 
Inspector General revealed problems in 21 out of 22 grants.
    Another audit we had in 2010 found $200,000 of improper 
expenditures. This money was spent on improper expenditures, et 
cetera.
    Now, Dr. Phil, I know that you are not up on all these 
figures, and if I am asking you a question you do not feel 
confident to answer, you do not have to answer it. But I think 
everyone here would agree that domestic violence and sexual 
assault victims deserve the vital services that this law helps 
provide. This is why I cosponsored the last reauthorization in 
2005 and going forward. So I would hope you would agree that 
given any current budget crisis that the Federal Government 
has, or even without a budget crisis, shouldn't we ensure that 
taxpayer dollars do not go to grant recipients who have been 
found to have violated the program's requirements?
    Mr. McGraw. Well, we need to be careful that we are not 
penny-wise and pound-foolish on a couple of different levels. 
One is obviously we want this money to get to the street. We 
want it where the impact is on the recipient, the victim that 
needs the help, and not caught up in bureaucracy, overhead, and 
red tape. That is where it is so frustrating. So that is very 
important.
    But I think we also need to make sure that we understand 
that if we do not deal with this, if this Act is not 
reauthorized and properly monitored, the ripple effect is huge, 
Senator. When we talk about 2 million women that are victimized 
in this way and 10 million children that are impacted by it, 
those children are put back into the system very soon. All of a 
sudden they are at high risk for drugs and alcohol; they are at 
high risk for sub-performance academically; they are at high 
risk for mental illness. And right now, as I say, this is 
highly underreported, but it is still costing $5.6 billion just 
in terms of the victims. And if you roll out the 10 million 
kids that are impacted and what resources they are going to 
have to have moving forward, we need this Act. Clearly, it has 
to be administered properly, but we need this Act, because if 
this is allowed to go on, it is going to break the system going 
forward in terms of the fallout to the children that we have to 
administer to afterwards. You know, we want to help them 
anyway, but we certainly cannot afford to not protect them now. 
It would be penny-wise and pound-foolish.
    Senator Grassley. If my question implied that I think that 
this Act should not be reauthorized, I hope you did not read 
the question that way.
    Mr. McGraw. No, I did not. In fact, I know you have already 
said that you intend to, with questions, support its 
reauthorization, and I know that.
    Senator Grassley. Okay. Ms. Larence, would you agree that 
as Congress considers reauthorization we need to take a strong 
look at rooting out waste and abuse in the grant program in 
order to ensure taxpayer dollars are going to the intended 
purposes and providing those services that Dr. Phil says are so 
very important?
    Ms. Larence. Yes, of course, Senator Grassley. GAO has not 
done a more current review of OVW's grant management process 
since that earlier work, but we do know that in November of 
2010 the Department of Justice Inspector General continued to 
identify DOJ's grant management among its top ten challenges 
managing the Department, and they continue to cite problems 
with the Office of Violence Against Women in terms of 
effectively closing out grants, spending money after the grants 
are closed out, and freeing up obligations that are available 
on expired grants. And so all of these things go to using the 
monies that the Congress has appropriated most effectively and 
efficiently to address these issues.
    Senator Grassley. And, Ms. Larence, you also heard me say 
that 21 out of 22 grant recipients in a study found that there 
was not enough justification of expenses. Wouldn't you agree 
that any recipient under this law and any grantee has a duty to 
ensure that all expenses are allowed under the program?
    Ms. Larence. Yes, we do. In our prior work during 2006 and 
2007, we visited 20 individual grantees and did work with them. 
In some cases, as Dr. Phil mentioned, you know, their tradeoff 
decisions they think they are making is, ``Do we spend money on 
filling out the forms and collecting the data versus spending 
money on important services? '' So sometimes that is a tradeoff 
decision that they are making. But, again, we agree with you 
that it is important to make sure that we are using the money 
most effectively and efficiently and legally.
    Senator Grassley. Would you make recommendations along the 
lines that grantees found to have violated grant program 
requirements should be excluded from participation in favor of 
those who followed the rules?
    Ms. Larence. That is probably beyond the scope of work that 
we have done, Senator.
    Senator Grassley. Okay. Mr. Shaw, thank you again for 
coming all the way from Iowa. It is always good to have people 
from our great State here. I just want to clarify a point that 
you make in your written testimony.
    In your written testimony, you state that, ``In its first 6 
years alone, [the Act] saved taxpayers at least $14 billion in 
net averted social cost.'' What is the basis of your statement 
that $14 billion were saved? Is that contained in any report or 
some other source that you could direct us to? And if so, I 
would be interested in reading that report so we can determine 
if other savings can be achieved.
    Mr. Shaw. Yes, it is based on a study that was done a few 
years ago. I have the information, and I can get that 
information to you in terms of that.
    Senator Grassley. Okay. Would you give it to my staff 
afterwards? Because I have to go vote.
    Mr. Shaw. Yes.
    Senator Grassley. Thank you, Mr. Chairman.
    Chairman Leahy. [presiding.] Thank you very much, and I 
have voted and Senator Franken has voted, and I yield to him.
    Senator Franken. Thank you, Mr. Chairman, for calling this 
very important hearing, and thank you to all the witnesses.
    I have a question, Mr. Shaw. According to the Justice 
Department, in 2006 there were more than 26,000 victims of GPS 
stalking. That is in 2006, and this is by cell phones and 
mobile devices. And, of course, there are millions more 
Americans that have mobile devices now, like iPhones and 
Droids. Many stalkers--and we did a hearing on this in my 
Subcommittee that I am Chair of on Privacy and Technology. Many 
of these stalkers use what are known as ``stalking apps'' to 
track their victims, and these apps are specifically designed 
for stalking and are freely available to purchase online. And 
once they are installed on a victim's phone--and it is not 
hard, especially if it is a boyfriend or a husband who has 
access to the victim's phone. Once they are installed, a 
stalker can know his victim's location down to a few yards at 
any time.
    The website of one of these stalking apps--here is a 
printout of the website--actually says, ``Track every text, 
every call, every move they make using our easy cell phone spy 
software.''
    Mr. Chairman--which I guess is now me.
    [Laughter.]
    Senator Franken. Without objection----
    [Laughter.]
    Senator Franken.--I would like to add the printouts of this 
and three similar apps to the record. So ordered.
    [Laughter.]
    [The information referred to appears as a submission for 
the record.]
    Senator Franken. Mr. Shaw, I have a bill that I introduced 
with Senator Blumenthal called ``The Location Privacy 
Protection Act'' that would criminalize the worst of these 
apps. Do you think we need to do better protecting women from 
these stalking apps?
    Mr. Shaw. Absolutely. I know it is difficult in this day 
and age to keep up with technology. It gets far ahead of us. 
And it is important for us to figure out ways to catch up. 
There are critical resources that are necessary for us to keep 
up with that technology that is moving ahead. That is in a lot 
of ways being couched as, you know, take care of your kids or 
make sure your kids are not doing----
    Senator Franken. And there is a legitimate use for tracking 
your kids.
    Mr. Shaw. Right.
    Senator Franken. There are legitimate----
    Mr. Shaw. Keep up with the kids. But what we also know is 
that perpetrators of violence, batterers, sex offenders, use 
those same tools to victimize women and the people that they 
are abusing. So it is critical and crucial that we provide 
resources to law enforcement to be able to respond. And it is 
critical that we provide the information to study what is going 
on, to really look at what is going on with our technology 
and----
    Senator Franken. And that we--I am proposing a law, a piece 
of legislation that would prosecute apps that knowingly sell 
things that are used in this manner and that would give--would 
signal somebody that they are being followed.
    Mr. Shaw. Actually, that is an important part, to get to 
the distributors as well, because oftentimes we look at the 
back end of it, somebody that uses it, we hold them accountable 
for it, but also using our resources to get to the distributors 
to say it is not OK for you to be distributing this material 
and producing it this way.
    Senator Franken. Absolutely.
    Ms. Van Buren, several months ago I visited an emergency 
shelter in southern Minnesota, and the community had space for 
nine--it had nine units for women and their kids. And from what 
the folks that ran the shelter said, it was always full, and 
that the distinction here between an emergency shelter and a 
transitional shelter was a little blurred. These women were 
using it to get away from their abuser and get their kids away 
from the abuser.
    Can you talk about the distinction between emergency and 
transitional housing and why both are important?
    Ms. Van Buren. Certainly. In our experience, at Women 
Helping Battered Women, emergency shelter is available for 
women for a 3-week period of time, and it is during that period 
of time that we helped them find their next step. And in our 
case it could be one of our transitional shelter apartments. We 
operate scattered-site apartments in the community as well as 
we manage a complex, an apartment building. And that moves 
women into a whole different funding stream when they move into 
our transitional housing. And women can come into Sophie's 
Place and stay for up to 2 years and really have much more 
intensive services, you know, everything from counseling to 
credit to employment to, you know, starting their own business. 
All sorts of different opportunities for them are available 
over that 2-year period of time.
    So that is the difference, that transitional housing really 
is a transition from crisis to permanent housing, and our 
emergency shelter is crisis housing. It is a place for them to 
flee in the middle of the night. It is where they can land 
safely. It is where they can get crisis support for their 
children and for themselves before they move into a more stable 
situation.
    Senator Franken. But if there is no place to transition 
to----
    Ms. Van Buren. Well, that is the rub.
    Senator Franken. Yes. And I know I am out of time. We are 
going to have a second round, Mr. Chairman?
    Chairman Leahy. We are.
    Senator Franken. Okay. Thank you. I would love to do that. 
Thank you.
    Chairman Leahy. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    First of all, thank you all for being here and for giving 
us the very substantial, varied insights that you bring to this 
subject. And I strongly support, as you do, reauthorization and 
strengthening of the Violence Against Women Act, and as 
Attorney General of the State of Connecticut, I took a strong 
stand--in fact, started an organization called ``Men Against 
Domestic Violence,'' which sought to enlist leaders of the 
community and business and law enforcement and news 
broadcasting and many other areas in providing models and 
leadership in this area, which focuses on my question.
    Beyond the legal issues--and maybe I can begin with you, 
Dr. Phil--how do we better enlist men in this battle? How do we 
make them models for young people so that we break the cycle? 
As you know, more than 70 percent of all men who commit 
domestic violence see it or experience it in their own lives. 
How do we break that cycle?
    Mr. McGraw. You know, I think we have to go at it two ways. 
I am working with some other professionals right now to put a 
program into the schools where we get to these young men before 
they get into relationship situations where the emotions run 
high enough that it pulls for an abuse breakdown. We have to 
get into the schools and teach these young men that it is never 
OK to put your hands on a woman in anger. No reason, no way, no 
how do you ever do that. But we have to go beyond just telling 
them what not to do. We have to teach them how to problem 
solve. We have to teach them how to communicate.
    My experience has been that people turn to violence when 
they run out of socially acceptable ways to express themselves. 
We have to teach them where the boundaries are. We have to 
teach the young girls what constitutes the early-warning signs 
of an abusive relationship. What they think is just ``Oh, they 
love me so much'' can, in fact, be control, domination, turn 
into stalking, all sorts of things that are gateway behaviors 
to the physical violence. So we have to get into the schools 
and not just have a dialog on the first day or some assembly 
speech. It has to be a dialog that is ongoing.
    And as far as once they are in the adult role, we have to 
teach the men where the boundaries are, because the most 
powerful role model in any child's life is the same-sex parent, 
and if you have got a father that is verbally, mentally, 
emotionally, or physically abusive, that behavior will be 
mimicked, as you say. To do that, we have to teach these men, 
but there is no forum for that, which is why, you know, we use 
the ``Dr. Phil'' show to do that, but we do not have a lot of 
men watching during the day. So we are talking to the women, 
not to the men. And it is difficult to find a forum where you 
get an audience with them to teach them alternative ways to do 
it. Telling them not to do it is not enough. You have to say, 
``Here is what to do instead.'' And to do that we have got to 
have an audience, and to have an audience we have got to have a 
forum, and that is difficult.
    Senator Blumenthal. Right. Yes?
    Mr. Shaw. I would also like to add to that. Talking about 
going directly into the schools or talking to schools and doing 
that kind of programming, the direct work with young men in 
particular, it is just as important to talk about and do 
programming around the culture of those students. So as well as 
talking to the students and talking to young people about what 
is going on in their lives and providing them with support and 
tools, it is talking to the community around them, whether it 
is talking to the teachers providing them with information, 
talking to community leaders, redefining what it means to be a 
man in a culture or redefining what positive and healthy 
relationships are in a culture so that when young men are 
making choices, they are not making choices in isolation. They 
are not thinking, ``Well, he says it is OK to do this, so that 
means it is OK for me to do this,'' or, ``I am assuming that it 
is OK because nobody is saying that I am doing something 
wrong.'' Changing the culture around them so that they believe 
that the teacher, the police officer, the people in their 
community are going to provide them with social sanctions for 
doing things to hurt people in their lives.
    Senator Blumenthal. Well, I think changing the culture is 
critical, but you do need--as Dr. Phil said, you need a forum. 
You need a megaphone. But even more than words is the power of 
an example, a model, you know, a sports figure who can talk 
about experience that will grip young people, and it is young 
people that have to be a major part of the audience here. So I 
look forward to working on many of these issues. My time, 
unfortunately, has expired, but I look forward to a second 
round of questioning if that is possible.
    Chairman Leahy. Thank you very much.
    Senator Klobuchar.
    Senator Klobuchar. Thank you, Chairman, for holding this 
hearing on such an important topic. I think some of you know 
that in my prior life I was a prosecutor for 8 years, and we 
had an award-winning domestic violence service center at 
Hennepin County, a one-stop place where people could go with 
their kids and get restraining orders, and the shelters were 
represented there, and it continues to be one of the best in 
the country. And that is one of the reasons, after seeing these 
victims, why I am so interested in making sure that we 
reauthorize the VAWA bill and that we do it in a good way and 
we are smart about any changes that we make.
    I had a question first about cyber stalking. I have 
introduced a bill with Kay Bailey Hutchison to get at sort of 
that next level of stalking, to update the law that we have, 
and I guess my first question is if any of you have worked on 
this stalking issue and if you have seen a greater use of the 
Internet in either some of the stalking cases or violence 
cases. Anyone?
    Mr. Shaw. Well, we have not had the resources to study it 
to really get good data on it, but we have seen anecdotal 
evidence that the technology is being used to continue to 
perpetrate crimes on victims of violence and continue to stalk 
them.
    Actually, as the manager of a shelter, a few years ago I 
was struck by the fact that online there was--while we were 
trying the best we could to keep our shelter as a confidential 
shelter that nobody knew where it was, online the address, the 
location, the GPS tracking systems could look down, if you just 
put the word ``shelter'' on the Internet in a Google search and 
looked on the map, you can end up looking directly into a 
shelter, looking at the addresses there. Even though it is not 
listed, that information is out there for people to access 
while using devices and technology to do that all the time.
    Mr. McGraw. One of the biggest frustrations about this, 
Senator, we have had I cannot tell you how many letters and 
stories that we have dealt with in our End the Silence on 
Domestic Violence campaign where part of the abuse was that the 
texting and the e-mails--texting her at work 300, 400 times 
during the day; when she goes to the store, following her, 
stalking her. But the problem that we are running into is when 
you go to the authorities with it, they do not really know what 
to do with it. You know, they will say they have a cyber crimes 
division, but the truth is they do not really know what to do 
with it. Like, ``What do we do? '' So, ``Turn your phone off, 
lady'' is what they say, and so they are very frustrated that 
there is no real accountability for the person. And, you know, 
we see it in--we have an anti-bullying campaign. You know, the 
bullying used to take place on the playground. Now it follows 
the child home, and it is the same way in this situation. It 
can follow the woman to work or to her mother's house or 
wherever, where it is too difficult to unplug from it.
    Senator Klobuchar. Right. The other piece about this I 
think is just that you have laws that were so outdated, and 
that is why we are trying to update them, because it is very 
hard to make some of the cases on the cyber piece of it. And I 
would think also trying to use technology to our advantage so 
that they can, you know, cut off access to those numbers and 
those e-mails to certain people will be a piece of this as 
well.
    One of the things I wanted to ask you, Dr. Van Buren, was: 
I know in your testimony that a 2010 study showed that more 
than 70,000 people were served by domestic violence programs in 
just one day, but, tragically, 9,500 requests for services went 
unmet. What happens in these circumstances, do you think, when 
they do not get any services, their needs are unmet?
    Ms. Van Buren. First, we have to make sure you realize that 
is not just in Vermont.
    Senator Klobuchar. I do.
    Ms. Van Buren. Okay. That would be a lot of people for 
Vermont.
    Senator Klobuchar. I know. I have been there.
    [Laughter.]
    Ms. Van Buren. What happens is that they do not--there are 
not alternatives. There are no options. What happens when 
someone calls us in crisis or even on the hotline and not 
necessarily in crisis is that we are able to offer them 
options. We are able to either bring them into our shelter, put 
them in a safe motel room, you know, provide them with services 
in the courts. And so if we are not able to serve them or if 
any of the other shelters or domestic and sexual violence 
organizations in the State of Vermont cannot serve them, they 
do not have any options. They stay with their batterer, they 
live on the streets. We have women who are living in their cars 
because there is no place else to go with their kids. 
Frequently homeless shelters will not accept victims of 
domestic violence who are in crisis.
    So it is a tragic situation that is difficult, you know, 
because they really have limited options.
    Senator Klobuchar. Thank you.
    Chairman Leahy. Thank you very much.
    Senator Franken.
    Senator Franken. Thank you again.
    Dr. Van Buren, my last question was about going to a town 
in Minnesota, a city really, one emergency shelter, which also 
served kind of as a transition, full, nine units. And kids are 
there. And I want to kind of speak to the experience of the 
kids, and I want to, Dr. Phil--and, by the way, feel free to 
call me ``Senator Al.''
    [Laughter.]
    Senator Franken. I want to thank you for the End Silence on 
Domestic Violence campaign that you are doing. It's a great 
service. Can both of you speak to what happens when a woman and 
her kids cannot be housed when a woman needs to work, needs to 
have someplace to live? What is the effect on the child if they 
have to move back in with the abuser? What does that do in the 
long run? And anyone can speak to that, actually.
    Ms. Van Buren. Well, I will start, but I will let you talk 
about the whole psychological piece.
    Mr. McGraw. Okay.
    Ms. Van Buren. More than 50 percent of the people who come 
into our services have children with them, women have children, 
so we have a very large children's program that works with 
these kids in play groups, therapeutic play groups, both in our 
transitional housing center as well as in our shelter. We also 
continue to work with children after they have left our 
services, so it's an ongoing therapeutic play group for these 
kids.
    I think any child who is in a situation where they are 
faced with homelessness, they are living in fear, they 
themselves are being either victims of abuse or witnessing 
abuse, you know, that is what we are working with right there 
at that point. You know, we are working with them when they are 
in crisis. And without that, I think we can defer to Dr. Phil's 
comments about the damage that that inflicts on them, which we 
will see on and on and on as they grow older.
    Mr. McGraw. You know, the problem is really stark when you 
think about it. If you really put yourself in a woman's 
position, with children, and she is getting beaten and abused 
in the home, so she goes out, if you have nowhere to go, what 
you do is you go back home. You go back to the abuser. You take 
your child, you put them back in harm's way, you put yourself 
in harm's way. And, you know, as I said, there is this 
phenomenon of separation assault. It is in those first 2, 3 
weeks after you get away from the abuser, because abuse is 
about control and it is about dominance. And when you leave, 
there is a real frustration effect. And that is why you get so 
much more violence at that point. That is the critical time 
where, if these beds are not available, if these shelters are 
not available, that women and her children's very lives are in 
danger, to the point that we often have to say to women, ``You 
simply cannot leave right now,'' because your first goal is to 
stay alive. And if you leave, you put your life in jeopardy if 
you do not have a safe, secure place to go, and by ``secure,'' 
where they simply cannot find you. And going to your mom's 
house or your sister's house is the first place they are going 
to look.
    We have to have funding for these emergency shelters and 
transitional housing until they can get in a situation where 
they stand on their own and can get geographically safe. It is 
life and death.
    Senator Franken. Because in the long term, these kids, when 
they--the choice, if we do not fund the shelters, if we do not 
fund the transition, these kids going back in the situation are 
witnessing this or are subject to it. And doesn't that continue 
the cycle of abuse generationally?
    Mr. McGraw. When a child is exposed to this, Senator, it 
changes who they are. We write on the slate of who these 
children are every day, and this is not something like they 
scrape their knee, it will heal up in a while. This changes who 
they are. It causes them to define their relationships in this 
way. It causes them to fear intimacy. It causes them to blame 
themselves. Children have a unique ability to find a way that 
whatever is going wrong, it is their fault. They will figure a 
way to say, ``If I did not need money for school pictures, if I 
did not make so much noise, if I did not fight with my sister, 
this would not be happening.'' They blame themselves for that, 
and it erodes their personality, it erodes their mental health 
and their mental fitness.
    So the impact on these children is long, long reaching. As 
I said, they are at risk for drugs, they are at risk for 
alcohol, depression, anxiety, and post-traumatic stress 
disorder, to just name a few. And those are long-term chronic 
problems, and, by the way, they cost a lot of money to treat 
across a lifetime.
    Senator Franken. My time is up, but that is a point I would 
like to make for everyone. The cost/benefit analysis----
    Mr. McGraw. It is huge.
    Senator Franken. Huge. If you just make sure that there are 
transitional shelters, there are shelters and transitional 
housing, the cost/benefits of that are enormous.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Senator Blumenthal.
    Senator Blumenthal. Thank you. You know, I could not agree 
more with Senator Franken, and we have seen it in the State of 
Connecticut with the shelters that we have.
    One point that maybe we have not emphasized enough in this 
conversation this morning is the courage and fortitude that it 
takes for many women to leave an abusive situation. As 
incredible as it may seem, having been involved in some of 
these cases, having talked to some of the women, having visited 
shelters, particularly Interval House in the State of 
Connecticut, our largest shelter, knowing of women who come 
with all of their possessions literally in a garbage bag and 
one or more children with them, even after years of abuse, it 
takes such an effort of courage and bravery to break a 
household.
    So I wonder if perhaps you can comment a little bit on what 
kind of support we can provide in those shelters for women who 
take this great act of courage.
    Ms. Van Buren. VAWA has done a tremendous amount to support 
what is going on in women's lives. Not only are we supporting 
them now as they go through the criminal system, the court 
system, which, you know, is long and complicated--and we have 
advocates who work with them every day to help them wind their 
way through that process while they are with us in shelter or 
transitional housing. VAWA can continue to support support 
groups that we run for women who are victims. They can get 
together and talk and, you know, have a trained facilitator 
help them with this, acknowledging their courage, helping them 
find the strength to continue. VAWA continues to support our 
ability to advocate for their children, to advocate for them 
with landlords, with employers, and the support that we have 
been able to offer since VAWA happened has been night and day 
from before and after.
    You know, as in my testimony, I think we were receiving 
$50,000 in Federal money prior to VAWA. There just was no 
Federal support for the work that we were doing. And now with 
this Act it really does support the tremendous amount of 
services that these women require: economic justice services, 
housing, legal, children, all of those. So as you said earlier, 
it needs to be strengthened, and it needs to be passed again.
    Mr. McGraw. Senator, if I could add, because I do not think 
the record would be complete without saying this, the help 
starts before the woman actually leaves, because there is a 
right way and a wrong way to leave an abusive relationship. And 
the wrong way is to confront the abuser. The wrong way is to 
just run out the front door. The right way to do this is very 
thoughtfully, with some planning, having an option of where to 
go. Planning ahead of time so you have an extra set of car 
keys, you have a little bit of money, however tight it may be, 
to get the documents for your children, birth certificates and, 
you know, things of that nature that you are going to need in 
order to function. And women do not think about this when they 
are in crisis. Nobody would--man, woman, otherwise.
    What VAWA has allowed to happen is to have resources for 
information to let women plan to do this in a way that they 
minimize the very real danger of that separation period. But 
there is a right way and a wrong way to leave, and by educating 
them we save their lives because they do it right instead of 
putting themselves in harm's way.
    Senator Blumenthal. So that counseling and support really 
has to begin before they go to a----
    Mr. McGraw. Most definitely.
    Ms. Van Buren. And it happens most frequently--for us, 
anyway, it happens when they call our hotline. That is the 
gateway to all of our services and when we----
    Mr. McGraw. Without the funding, there is not the hotline.
    Senator Blumenthal. Well, again, I look forward to working 
with you all. I apologize that I have been in and out because 
of the votes and other commitments, but I really appreciate 
your being here today, and thank you to the Chairman for having 
this very, very important hearing. Thank you.
    Chairman Leahy. Thank you. I am thinking we have three 
former prosecutors sitting here at the dais now, and that is 
one of the things that has kept us here.
    I want to ask Dr. Van Buren--and I do not mean this as a 
totally parochial thing because every Senator has parts of 
their State that are rural. What are some of the most specific 
and unique needs in a rural setting under VAWA?
    Ms. Van Buren. I think the most unique thing about rural 
living is the isolation. Many of our small towns in Vermont and 
in other rural parts of the country are miles away from anybody 
else. Women are isolated. What is happening is virtually 
invisible to the outside. You know, women can be abused and not 
allowed to leave. It is harder to get away with that in a more 
urban setting. So I would say, you know, rural needs, 
transportation is much more difficult, again, the isolation, 
having to travel long ways just to get services. Those are 
unique to a rural setting.
    Chairman Leahy. My wife and I do a lot of work with our 
National Guard and Guard families, and what we find, too, is 
some of our returning soldiers who may have physical or mental 
harm from the war, and in these rural towns, there is also a 
feeling, well, we do not talk about this. And I think that is 
something that has to be acknowledged.
    I do not have further questions, but I think Senator 
Klobuchar does, and I will yield to her.
    Senator Klobuchar. I just have one. Maybe I am just trying 
to interest you, Dr. Phil, on this issue, but there has been a 
new-found emphasis, which I think is appropriate, by former 
Secretary Gates on sexual assault issues in the military, which 
I think is, when you think about domestic abuse back a few 
decades ago, or child abuse before that, is something that no 
one has been dealing with. And now as these things come out in 
the open, I think it is better for everyone and lives are 
saved. But in this case, there is this particular issue that 
the sexual assault records in the military are destroyed, in 
some branches of the service after one years, in some branches 
after 5 years. And there are some unique rules there. Some 
people come and report it and ask that it be private. Some 
people do not ask that it be private. That aside, the records 
can be kept, and we now have--I am leading a bill with Senators 
Collins, Murkowski, and McCaskill, and I have gotten all 17 
women Senators on the bill, Democrats and Republicans. And 
there was just a defense markup recently that, unfortunately, 
still put a limit of 5 years. And we had a victim come forward 
in Minnesota who, because the marines kept the records for 5 
years, when this guy got out and raped two kids in California, 
they were able to locate her so she could come and testify 
because it was a similar situation, although her prosecution 
was not pursued because it was more of a date rape case.
    And so I feel very strongly that the records do not have to 
go public, but records should be preserved, and I just see no 
reason why they would be destroying these records when everyone 
involved in these situations knows that you often see similar 
behaviors. And we are in no way saying that the vast majority 
of those in the military are engaging in this conduct. Of 
course they are not. But it hurts the entire military when 
people are hiding this conduct and we are not allowed to later 
prosecute people and use evidence to prosecute people.
    So I just wondered if any of you knew about this situation 
and if you had any comments on it.
    Mr. McGraw. Well, I did not know about it, but I do know 
that the best predictor of future behavior is past behavior, 
and the recidivism rate for sexual offenders is disturbingly 
high. So to fail to make that information available is shocking 
to me, that that would not be available to know that someone--
because that person, unfortunately, is at much higher risk to 
repeat offend. So I cannot imagine that they are dumping that 
information.
    Senator Klobuchar. That is what is happening. Anyone else?
    Mr. McGraw. You do have my interest.
    Senator Klobuchar. Thank you.
    Mr. Shaw. What VAWA has done over the last several years is 
improve our coordinated response in the community in general 
for law enforcement, medical providers, and advocates to 
respond to sexual abuse survivors. I think it is important, 
just as important to improve that coordinated response within 
the military. What VAWA can do is provide the resources to have 
sexual assault nurse examiners providing services in the 
military, having providers or resources that allows the 
military to start coordinating that get to those legal and 
judicial consequences of not keeping information for more than 
5 years, so that if there was more of a coordinated response, 
which VAWA can support, it is more likely that those types of 
issues would be addressed.
    Senator Klobuchar. Very good. Anyone else?
    Ms. Van Buren. I really do not know very much about this 
except that in Chittenden County, in the Guard--and maybe 
Senator Leahy knows more about this, but the Guard have funded 
a coordinator position who is working with us pretty closely on 
issues of returning vets and military families. And I think the 
more that we can continue, as Michael said, with STOP funds, 
providing that coordinated community response and bringing the 
military into that and really, you know, talking about exactly 
what you brought up so that we all know that information and 
can start working actively on the local level to address that.
    Senator Klobuchar. I think this would be more information 
for prosecutions if they, you know, subpoena the records, they 
are able to get the records to support one. But the issue you 
are talking about I firmly believe is very important. Minnesota 
started the Beyond the Yellow Ribbon Program for the National 
Guard, and it is now going across the country, where they bring 
in the troops and their families every 3 months to talk about 
any issues, and it has been an amazing change in the way people 
are willing to talk about marital issues and talk about their 
problems getting a job, problems getting health care, or other 
things. And I think it is really important because you cannot 
just plop someone back after serving in a very difficult 
situation day to day and then expect them to be calling the 
pizza place to order a pizza or their bank account and everyone 
is going to be just totally normal. So that is the idea there, 
and certainly it goes into domestic abuse issues. But I 
appreciate that as well.
    But this is purely about trying to get evidence if someone 
goes out and commits a crime, and it turns out they have a 
record, but you cannot find out what it is.
    Thank you, Mr. Chairman.
    Chairman Leahy. Well, thank you. Dr. McGraw, Mr. Shaw, Dr. 
Van Buren, Ms. Poner, and Ms. Larence, thank you all very, very 
much. This has been a worthwhile hearing. You will get 
transcripts of what you said. If you find something in there 
that you think you should have added, feel free. We will keep 
it open for that. This is not a ``gotcha'' hearing. We want to 
know what is best to do.
    Thank you all very much.
    [Whereupon, at 11:57 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
